William P. Demond
1520 Rutland St.
Houston, Texas 77008

October 15, 2021

Via electronic filing

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

RE: No. 21-532, Jacob Matthew Johnson v. Texas
Blanket consent to amicus curiae briefs

Dear Mr. Harris,

Pursuant to Supreme Court Rule 37.2(a), Petitioner grants blanket consent to
the filing of amicus curiae briefs in support of either party or neither party with
respect to Petitioner’s petition for writ of certiorari. Please note Petitioner’s blanket
consent on the docket.

Thank you for your assistance.

Sincerely,

Bitoomn-

William Demond

cc: John R. Messinger
Stacey M. Soule
